  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




  MEDICARE COMPLIANCE REVIEW OF
ST. JOSEPH REGIONAL HEALTH CENTER
 FOR CALENDAR YEARS 2009 AND 2010


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patricia Wheeler
                                                 Regional Inspector General

                                                         August 2013
                                                        A-06-12-00029
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
August 27, 2013



Report Number: A-06-12-00029

Mr. Barry Hudgin
Senior Vice President, General Counsel, Chief Compliance Officer
St. Joseph Regional Health Center
3231 Central Park West, Suite 106
Toledo, OH 43617

Dear Mr. Hudgin:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of St. Joseph Regional Health
Center for Calendar Years 2009 and 2010. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Matt Moore, Audit Manager, at (214) 767-9203 or through email at
Matt.Moore@oig.hhs.gov. Please refer to report number A-06-12-00029 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Barry Hudgin


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and data analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for inpatient and outpatient services.

St. Joseph Regional Health Center (the Hospital), located in Bryan, Texas, is a 310-bed health
care center and the anchor facility for the St. Joseph Health System. Medicare paid the Hospital
approximately $159 million for 15,045 inpatient and 99,363 outpatient claims for services
provided to beneficiaries during calendar years 2009 and 2010 (audit period) based on CMS’s
National Claims History data.

Our audit covered $2,376,966 in Medicare payments to the Hospital for 242 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 193 inpatient and 49
outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 110 of the 242 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 132 claims, resulting in overpayments of $638,960 for the
audit period. Specifically, 117 inpatient claims had billing errors, resulting in overpayments of
$608,180, and 15 outpatient claims had billing errors, resulting in overpayments of $30,780.
These overpayments occurred primarily because the Hospital did not have adequate controls to
prevent incorrect billing of Medicare claims within the selected risk areas that contained errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $638,960, consisting of $608,180 in overpayments for
       117 incorrectly billed inpatient claims and $30,780 in overpayments for 15 incorrectly
       billed outpatient claims, and

   •   strengthen its controls to ensure full compliance with Medicare requirements.

ST. JOSEPH REGIONAL HEALTH CENTER COMMENTS

In written comments on our draft report, the Hospital agreed with part of our first
recommendation and did not address our second recommendation. The Hospital agreed that it
did not fully comply with Medicare requirements for all the risk areas we questioned except
inpatient short stays. Although the Hospital agreed with the recommended denial of the four
inpatient claims that were billed with high-severity-level DRG codes, it disagreed with the value
of the overpayment. In addition, the Hospital disagreed with our findings on all 79 inpatient
short-stay claims and stated that “the physician determination and criteria for admission are fully
supported by the medical record and that there is a demonstrated medical necessity for each
claim submission.” The Hospital added that it intends to seek redetermination and appeal the
claims at issue in the Short Stay risk area.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We maintain that our overpayment calculation is correct for the four inpatient claims
that were billed with high-severity-level DRG codes. For inpatient short stays, we used an
independent medical review contractor to determine whether specified claims met medical
necessity requirements. The contractor examined all of the medical records and documentation
originally submitted and carefully considered this information to determine whether the Hospital
billed the inpatient claims according to Medicare requirements. Based on the contractor’s
conclusions, we determined that 79 claims should have been billed as outpatient or outpatient
with observation services.




                                                 ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       BACKGROUND ...................................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System .........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................1
          Medicare Requirements for Hospital Claims and Payments .........................................2
          St. Joseph Regional Health Center.................................................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
          Objective ........................................................................................................................3
          Scope ..............................................................................................................................3
          Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS..................................................................................4

       BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................4
           Incorrectly Billed as Inpatient ........................................................................................5
           Incorrectly Billed as Separate Inpatient Stays ..............................................................5
           Incorrectly Billed Diagnosis-Related Group Codes ......................................................5
           Manufacturer Credits for Replaced Medical Devices Not Reported .............................6
           Incorrect Discharge Status Code....................................................................................6
           Incorrect Source-of-Admission Code ............................................................................7

       BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
           Manufacturer Credits for Replaced Medical Devices Not Reported ............................7
           Incorrectly Billed Evaluation and Management Services .............................................8
           Insufficiently Documented Services .............................................................................8

       RECOMMENDATIONS .......................................................................................................8

       ST. JOSEPH REGIONAL HEALTH CENTER COMMENTS ............................................8

       OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................9

APPENDIXES

           A. RESULTS OF REVIEW BY RISK AREA

           B. ST. JOSEPH REGIONAL HEALTH CENTER COMMENTS




                                                                      iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 2 All services and items within an APC group are
comparable clinically and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and data analysis
techniques. Examples of these types of claims at risk for noncompliance included the following:

1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
    • inpatient short stays,

    • inpatient same-day discharges and readmissions,

    • inpatient claims billed with high-severity-level DRG codes,

    • inpatient and outpatient manufacturer credits for replaced medical devices,

    • inpatient transfers,

    • inpatient psychiatric facility emergency department adjustments, and

    • outpatient claims billed with evaluation and management (E&M) services.

For the purpose of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, § 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, § 80.3.2.2,
requires providers to complete claims accurately so that Medicare contractors may process them
correctly and promptly. Chapter 23, § 20.3, of the Manual states that providers must use HCPCS
codes for most outpatient services.

St. Joseph Regional Health Center

St. Joseph Regional Health Center (the Hospital), located in Bryan, Texas, is a 310-bed health
care center and the anchor facility for the St. Joseph Health System. Medicare paid the Hospital
approximately $159 million for 15,045 inpatient and 99,363 outpatient claims for services
provided to beneficiaries during calendar years 2009 and 2010 (audit period) based on CMS’s
National Claims History data.




                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $2,376,966 in Medicare payments to the Hospital for 242 claims that we
judgmentally selected as potentially at risk for billing errors. These 242 claims consisted of 193
inpatient and 49 outpatient claims and had dates of service during the audit period.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 100
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from April 2012 through March 2013.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

   •    obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

   •    used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    judgmentally selected 242 claims (193 inpatient and 49 outpatient) for detailed review;



                                                 3
   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly;

   •   reviewed the medical record documentation provided by the Hospital to support the
       selected claims;

   •   used an independent contractor to determine whether 100 selected claims met medical
       necessity requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 110 of the 242 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 132 claims, resulting in overpayments of $638,960 for the
audit period. Specifically, 117 inpatient claims had billing errors, resulting in overpayments of
$608,180, and 15 outpatient claims had billing errors, resulting in overpayments of $30,780.
These overpayments occurred primarily because the Hospital did not have adequate controls to
prevent incorrect billing of Medicare claims within the selected risk areas that contained errors.
For a detailed list of the risk areas that we reviewed and associated billing errors, see Appendix
A.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 117 of the 193 selected inpatient claims that we
reviewed. These errors resulted in overpayments of $608,180.




                                                4
Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or

services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 79 of the 193 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. Hospital officials stated that the errors occurred because (1) care management
processes were not fully effective during our audit period, (2) a second-level physician-review
solution 3 was not in place for most of the audit period, and (3) human error related to the data
entry process and determining whether claims should be billed as inpatient or outpatient. As a
result of these errors, the Hospital received overpayments of $505,644. 4

Incorrectly Billed as Separate Inpatient Stays

The Manual, chapter 3, § 40.2.5, states:

         When a patient is discharged/transferred from an acute care Prospective Payment
         System (PPS) hospital and is readmitted to the same acute care PPS hospital on
         the same day for symptoms related to, or for evaluation and management of, the
         prior stay’s medical condition, hospitals shall adjust the original claim generated
         by the original stay by combining the original and subsequent stay onto a single
         claim.

For 14 of the 193 selected inpatient claims, the Hospital incorrectly billed Medicare separately
for related discharges and readmissions in the same day. Hospital officials stated that these
errors occurred because the admission report failed to include inpatient same-day discharges and
readmissions and because of human error in identifying and addressing the principal error. As a
result of these errors, the Hospital received overpayments of $41,199.

Incorrectly Billed Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, the Manual, chapter 1,
§ 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

3
  A second-level physician review provides medical-necessity compliance through physician advisors who are
trained in Medicare/Medicaid rules and regulations on observation and inpatient status.
4
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than an inpatient. We were unable to determine the effect that billing Medicare Part B would have
on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.

                                                         5
For 4 of the 193 selected inpatient claims, the Hospital submitted claims to Medicare with
incorrect DRG codes. Hospital officials stated that these errors occurred because of human error
and the coding staff’s failure to recognize and appropriately code using the National Coding
Guidelines. As a result of these errors, the Hospital received overpayments of $24,765.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations (42 CFR § 412.89) require reductions in IPPS payments for the replacement
of an implanted device if (1) the device is replaced without cost to the provider, (2) the provider
receives full credit for the cost of a device, or (3) the provider receives a credit equal to 50
percent or more of the cost of the device. The Manual, chapter 3, § 100.8, states that to correctly
bill for a replacement device that was provided with a credit, hospitals must use the combination
of condition code 49 or 50 (which identifies the replacement device and nature of the
replacement) and value code “FD” (which identifies the amount of the credit or cost reduction
received by the hospital for the replaced device).

For 4 of the 193 selected inpatient claims, the Hospital received reportable medical device
credits from manufacturers for replaced medical devices but did not adjust its inpatient claims
with the proper condition and value codes to reduce payment as required. Hospital officials
stated that these errors occurred because there was no reliable reconciliation process to identify
and track manufacturer warranty credits. As a result of these errors, the Hospital received
overpayments of $19,250.

Incorrect Discharge Status Code

Federal regulations (42 CFR § 412.4(b)) state that the discharge of a hospital inpatient is
considered to be a transfer if the patient is readmitted the same day to another hospital unless the
readmission is unrelated to the initial discharge. The discharge of a hospital inpatient is also
considered to be a transfer when the patient’s discharge is assigned to one of the qualifying
DRGs and the discharge is to a skilled nursing facility (SNF) or to home under a written plan of
care for home health services from a home health agency and those services begin within 3 days
after the date of discharge (42 CFR § 412.4(c)). A hospital that transfers an inpatient under the
above circumstances is paid a graduated per diem rate for each day of the patient’s stay in that
hospital, not to exceed the full DRG payment that would have been paid if the patient had been
discharged to another setting (42 CFR § 412.4(f)).

For 6 of the 193 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that should have been billed as transfers. For these claims, the Hospital should have
coded the discharge status either as a transfer to an SNF or to home under a written plan of care
for the provision of home health services and received the per diem payment instead of the full
DRG payment. Hospital officials stated that these errors occurred because there was a lack of
follow up on the beneficiary’s postacute care status. As a result of these errors, the Hospital
received overpayments of $16,564.




                                                 6
Incorrect Source-of-Admission Code

Under Federal regulations (42 CFR § 412.424), CMS increases the Federal per diem rate for the
first day of a Medicare beneficiary’s IPF stay to account for the costs associated with
maintaining a qualifying emergency department. The Manual, chapter 3, § 190.6.4, states that
CMS makes this additional payment regardless of whether the beneficiary used emergency
department services. However, the IPF should not receive the additional payment if the
beneficiary was discharged from the acute care section of the same hospital.

The Manual, chapter 3, § 190.6.4.1, states that source-of-admission code “D” is reported by an
IPF to identify patients who have been transferred to the IPF from the same hospital. An IPF’s
proper use of this code is intended to alert the Medicare contractor not to apply the emergency
department adjustment.

For 10 of the 193 selected inpatient claims, the Hospital incorrectly coded the source of
admission for beneficiaries who were admitted to the IPF upon discharge from the Hospital’s
acute care section. Hospital officials stated that these errors occurred because of human error
and failure to train staff on the use of source-of-admission code “D.” As a result of these errors,
the Hospital received overpayments of $758.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 15 of the 49 selected outpatient claims that we
reviewed. These errors resulted in overpayments of $30,780.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3,
explain how a provider should report no-cost and reduced-cost devices under the OPPS. For
services furnished on or after January 1, 2007, CMS requires the provider to report the modifier
“FB” (which identifies that the replaced device was provided without cost to the provider or full
credit was received for the replaced device) and reduced charges on a claim that includes a
procedure code for the insertion of a replacement device if the provider incurs no cost or receives
full credit for the replaced device. If the provider receives a replacement device without cost
from the manufacturer, the provider must report a charge of no more than $1 for the device.

For 6 of the 49 selected outpatient claims, the Hospital received manufacturer credits for
replaced devices but did not report the “FB” modifier and reduced charges on its claims.
Hospital officials stated that these errors occurred because there was no reliable reconciliation
process to identify and track manufacturer warranty credits. As a result of these errors, the
Hospital received overpayments of $29,535.
                                                   7
Incorrectly Billed Evaluation and Management Services

The Manual, chapter 12, § 30.6.6(B), states that a Medicare contractor pays for an E&M service
that is significant, separately identifiable, and above and beyond the usual preoperative and
postoperative work of the procedure.

For 7 of the 49 selected outpatient claims, the Hospital incorrectly billed Medicare for E&M
services that were not separately identifiable from the usual postoperative work of the procedure.
The services should have been included in the cost of the procedure. Hospital officials stated
that these errors occurred because of a lack of regular audits of outpatient claims to validate
whether the appropriate modifier was appended when outpatient procedures were provided. As a
result of these errors, the Hospital received overpayments of $1,173.

Insufficiently Documented Services

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider.

For 2 of the 49 selected outpatient claims, the Hospital incorrectly billed Medicare for services
that were not supported by the medical records. Hospital officials stated that these errors
occurred because of human error and a failure to bill appropriately. As a result of these errors,
the Hospital received overpayments of $72.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $638,960, consisting of $608,180 in overpayments for
       117 incorrectly billed inpatient claims and $30,780 in overpayments for 15 incorrectly
       billed outpatient claims, and

   •   strengthen its controls to ensure full compliance with Medicare requirements.

ST. JOSEPH REGIONAL HEALTH CENTER COMMENTS

In written comments on our draft report, the Hospital agreed with part of our first
recommendation and did not address our second recommendation. The Hospital agreed that it
did not fully comply with Medicare requirements for all the risk areas we questioned except
inpatient short stays. Although the Hospital agreed with the recommended denial of the four
inpatient claims that were billed with high-severity-level DRG codes, it disagreed with the value
of the overpayment. In addition, the Hospital disagreed with our findings on all 79 inpatient
short-stay claims and stated that “the physician determination and criteria for admission are fully
supported by the medical record and that there is a demonstrated medical necessity for each
claim submission.” The Hospital added that it intends to seek redetermination and appeal the
claims at issue in the Short Stay risk area.


                                                 8
The Hospital’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We maintain that our overpayment calculation is correct for the four inpatient claims
that were billed with high-severity-level DRG codes. For inpatient short stays, we used an
independent medical review contractor to determine whether specified claims met medical
necessity requirements. The contractor examined all of the medical records and documentation
originally submitted and carefully considered this information to determine whether the Hospital
billed the inpatient claims according to Medicare requirements. Based on the contractor’s
conclusions, we determined that 79 claims should have been billed as outpatient or outpatient
with observation services.




                                               9
APPENDIXES
                           APPENDIX A: RESULTS OF REVIEW BY RISK AREA



                                                                                 Value of         Claims With         Value of
                                                             Selected            Selected            Over-             Over-
                    Risk Area                                Claims              Claims            payments           payments
Inpatient

Short Stays                                                     101                 $659,441            79               $505,644

Same-Day Discharges and Readmissions                              24                 258,179            14                    41,199
Claims Billed With High-Severity-Level
                                                                  31                 574,404              4                   24,765
Diagnosis-Related Group Codes
Manufacturer Credits for Replaced Medical
                                                                  18                 402,498              4                   19,250
Devices
Transfers                                                          9                   56,416             6                   16,564
Psychiatric Facility Emergency Department
Adjustments                                                       10                   38,092            10                     758

 Inpatient Totals                                               193               $1,989,030            117              $608,180



Outpatient
Manufacturer Credits for Replaced Medical
                                                                 21                 $370,287              6                  $29,535
Devices
Claims Billed With Evaluation and
                                                                 28                    17,649             9                    1,245
Management Services
 Outpatient Totals                                               49                 $387,936            15                   $30,780



 Inpatient and Outpatient Totals                                 242              $2,376,966            132              $638,960

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
       outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at St. Joseph Regional Health Center. Because we have organized the information
       differently, the information in the individual risk areas in this table does not match precisely with this report’s
       findings.
APPENDIX B: ST. JOSEPH REGIONAL HEALTH CENTER COMMENTS
